Legal Services Mapping Evaluation
Home < Reports < Other
Legal Services Corporation Office of Inspector General
EVALUATION OF LEGAL SERVICES MAPPING
Updated: 14 October 2005
OBJECTIVE:
In the interest of furthering our mission to promote efficiency and effectiveness in the activities and operations of LSC and its grantees area, the LSC OIG conducted a concept evaluation to determine the utility of mapping in support of legal services strategic and operations management at the local, state and national levels.
OVERVIEW:
This project identified, prototyped, documented and assessed the maps and census poverty information that are valuable
to legal services decision-makers. The maps visualize the geographic distribution and changes of the poverty and the
LSC income-eligible populations. They compare the potential legal services client base to legal services closed cases
at various scales to give macro and micro-level views on the legal services environment and access to legal services
to low-income individuals from a geographic perspective. As such, this evaluation also serves as a demonstration
project for the application of geographic information technologies in the legal services environment and its possible
replication and deployment elsewhere. This web page provides detailed information on both the evaluation's results
and technical best practices. More overview...
PHASE II:
PRESENTATION before the LSC Board of Directors Committee on Provision for the Delivery of Legal Services (meeting held February 4, 2005)
LSC GRANTEE PROJECT EVALUATIONS
UTILIZING GIS TO STUDY LEGAL NEEDS ISSUES: An Analysis of the LSC OIG Southern California Mapping Project by James W. Meeker J.D, Ph.D., University of California, Irvine
DEVELOPED CORE LEGAL SERVICES MAP LIST
MAPS
Southern California
Montana
Georgia
AVAILABLE CENSUS POVERTY DATA
Southern California
Montana
Georgia
TECHNICAL BEST PRACTICES
Lessons Learned
Summary of Methods and Processes
GEOCODING - is the process that coverts addresses to locations on a map.
Methodology
Standard Process
Enhanced Enhanced
Results
Southern Californa (Group)
ICLS
LAFLA
LASOC
LASSD
NLS
Montana
Georgia (Group)
ALAS
GLSP
MAPPING STANDARDS
Sample Map Specification Sheet
Standard Titles and Legends
Legend Standards
BIAS ANALYSIS
Southern California
Georgia
PROJECT DATABASE - OVERVIEW, STRUCTURE AND QUERIES
Data Store Overview
Relational Database Diagram
California GeoDatabase Layers
Georgia GeoDatabase Layers
SOUTHERN CALIFORNIA
Census Tables and Views Index
Case Tables and Views Index
SQL to Extract Census Data - MS Word PDF
SQL to Extract Case Data - MS Word PDF
GEORGIA (Update)
Census Tables and Views Index
Case Tables and Views Index
Query Language to Extract Census Data (SQL)
Query Language to Extract Case Data (SQL)
PHASE I:
LEGAL SERVICES IN GEORGIA
Final Report [PDF] 7,023K 11/2003
Maps
OIG Presentation before the LSC Board of Directors Committee on Provision for the Delivery of Legal Services (meeting held January 31, 2003)
CONTACT:
David Maddox, 202 295 1653, DM@oig.lsc.gov
URL: http://www.oig.lsc.gov/mapping/mapping.htm